SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001

January 28, 2020

Thomas E. Towe, Esq.
P.O. Box 30457
Billings, MT 59107-0457

 

RE: Boland, et al. v. Boland, et al.

Dear Mr. Towe, Esq.:

The application for an extension of time within which to file a petition for a writ of
certiorari in the above-entitled case was postmarked January 24, 2020 and received
January 28, 2020. The application is returned for the following reason(s):

The lower court opinion must be appended. Rule 13.5.

It is impossible to determine the timeliness of your application for an extension of
time without the lower court opinions.

The application does not specify the amount of additional time requested. Rule
13.5.

A copy of the corrected application must be served on opposing counsel.

Sincerely,
Scott S. Hi is, Clerk
By: / /

Susax Frimpong
(202) 479-3039

Re-Submitted on January 31, 2020, with copies of the lewer court opinions
attached. The request for 10 days is included in the original Motion for
Extension of Time.filed and posted on January 24, 2020.

Wows EBov

Enclosures
